BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Amici Curiae
Brief of Former Environmental Protection Agency,
California Air Resources Board, and Department of
Justice Officials Jeffrey E. Holmstead, Ronald J.
Tenpas, John D. Dunlap III, and Lynn Buhl in Support
of Petitioners in 21-312, Volkswagen
Aktiengesellschaft, et al. v. State of Ohio ex rel. Dave
Yost, Ohio Attorney General were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies by
Next Day and e-mail Service to the following parties
listed below, this 30th day of September, 2021:
Robert J. Giuffra, Jr.
Sullivan & Cromwell LLP
125 Broad Street
New York, NY 10004
(212) 558-4000
gi uffrar@sullcrom.com

Counsel for Petitioners
Benjamin M. Flowers
Ohio Attorney General Dave Yost
30 East Broad Street, 17th Floor
Columbus, Ohio 43215
(614) 466-8980
benj amin.flowers@ohioattorneygeneral.gov

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
I Cincinnati, Ohio 45249
f

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Matthew A. Fitzgerald
Counsel of Record
McGuireWoods LLP
Gateway Plaza
800 East Canal Street
Richmond, VA 23219
(804) 775-4716
mfitzgerald@mcguirewoods.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 30, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

%lu_,

Sv~ 4

d,r h-. lj .

Notary Public

3<.J, d'Od(

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
ebruary 14, 2tj.:3

